WR-B-02-01




              AUDIT
             REPORT


                                    POWER MARKETING
                                     ADMINISTRATIONS’
                               INSTALLATION OF FIBER OPTICS




                                       OCTOBER 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
POWER MARKETING ADMINISTRATIONS' INSTALLATION OF
FIBER OPTICS

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                Installation Of Excess Fibers


                Details of Finding ............................................................ 3


                Recommendation and Comments ................................... 5


                Appendices


                Scope and Methodology.................................................. 8


                Estimate of Bonneville's Future Fiber Needs................... 9


                Estimate of Potential Reduction of Future
                Fiber Optic Cable Costs ................................................ 11
Overview
INTRODUCTION      The Power Marketing Administrations (PMAs) were established to
AND OBJECTIVE     transmit and sell electrical power generated by federally owned
                  hydroelectric projects. To accomplish these tasks, three PMAs -
                  Bonneville Power Administration (Bonneville), Western Area Power
                  Administration (Western), and Southwestern Power Administration
                  (Southwestern) - own and operate transmission lines that cross 22
                  states. Additionally, the PMAs maintain communication systems to
                  ensure the reliability of their transmission systems. These
                  communication systems perform vital functions such as protective
                  relaying, system monitoring, and scheduling of electricity transmission
                  over the transmission lines. The communication systems are also used
                  for administrative purposes, such as training and timekeeping by the
                  PMAs.

                  In the past, these communications systems were based primarily on
                  analog microwave radios. To meet current and future demands,
                  however, the PMAs began upgrading to fiber optic cable
                  communication systems. Fiber optic cable varies in transmission
                  capacity and costs based on the number of fibers built into the cable and
                  the type of fiber optic cable used. In addition, the type of terminal
                  equipment used to send and receive signals significantly affects the
                  level of communications. The PMAs were installing between 12 and
                  72 fibers per cable. Since the number of fibers varied widely, the
                  objective of this audit was to determine if the PMAs were installing
                  fiber optic cable with excess fibers.

CONCLUSIONS AND   Two of the three PMAs were installing fiber optic cable with excess
OBSERVATIONS      fibers. Bonneville was installing cable with 36 and 72 fibers, and
                  Western was installing cable with 48 fibers on certain routes. However,
                  after the auditors questioned the need for 48-fiber cable, Western
                  revised its plan to install 24-fiber cable and agreed to have partnering
                  agreements in place before installing 48-fiber cable. Bonneville,
                  however, continued to install cable with 36 and 72 fibers. The third
                  PMA, Southwestern, was installing only 12-fiber cable to meet its
                  operational requirements. The PMAs were installing cable with excess
                  fibers for other purposes, not just to meet their own operational needs.
                  By limiting installation costs to 24-fiber cable, however, Bonneville can
                  avoid between $2.7 million and $6.1 million in cable acquisition costs,
                  depending on the number and type of fibers used. Further, if Western
                  had continued to install all of the planned 48-fiber routes without
                  obtaining partnering agreements, it would have incurred $10.2 million
                  in unnecessary costs.




Page 1                                                Introduction and Objective/
                                                      Conclusions and Observations
         This audit identified issues that Bonneville should consider when
         preparing their year-end assurance memorandums on internal controls.




                                        ______(Signed)_________
                                        Office of Inspector General




Page 2                                     Conclusions and Observations
Installation Of Excess Fibers
Excess Fibers        Bonneville was installing fiber optic cable with excess fibers. The
                     number of fibers in the cable that Bonneville was installing exceeded
                     operational needs and also exceeded the operational needs of utilities
                     with similar requirements.

                                               Fiber Requirements

                     Bonneville was in the process of installing cable with 36 and 72 fibers
                     to replace its analog radio based communications system. Bonneville
                     claimed that cable with this number of fibers was needed to meet
                     upcoming demands in the year 2025; however, Bonneville could not
                     produce convincing evidence to support this claim. In a report
                     submitted to the Congress in 2000, Bonneville stated that extra fiber
                     was needed to meet future demands, improve reliability, provide needed
                     redundancy, and support critical systems. Our analysis of the material
                     prepared by Bonneville showed that its rationale for its high-fiber count
                     cable was questionable. For instance, Bonneville wanted to have extra
                     fibers available to:

                        •   Meet future demands, yet it did not have support for the
                            increased demand;
                        •   Improve the reliability of its system, yet it already met reliability
                            standards;
                        •   Install cable that equaled industry standards, yet there was no
                            industry standard size and utilities generally used between 2-
                            and 24-fiber cable unless they planned to become commercial
                            telecommunication service providers; and,
                        •   Protect critical functions, a reasonable requirement.

                     In assessing its future needs, however, Bonneville chose not to consider
                     one important factor. Terminal equipment currently on the market
                     provides significant enhancements in the capacity of signals that can be
                     sent on cable fibers. Using the highest capacity terminal equipment
                     readily available on the market, we compared Bonneville's needs with
                     the capability of the new equipment and found that 14-fiber cable
                     would satisfy all of its requirements. (See Appendix 2.) Therefore, we
                     questioned cable that exceeded 24 fibers; we used 24 rather than 14
                     fibers to allow for breakage and unforeseen growth.




Page 3                                                                    Details of Finding
                                     Comparison With Other Utilities

                  To determine if the 36-, 48-, and 72-fiber cable being acquired and
                  installed by Bonneville was excessive, cable purchases by similar size
                  electric utilities were examined. Twelve utilities were contacted
                  to determine the number of fibers being installed. Ten reported that
                  they installed cable containing from 2 to 24 fibers to meet operational
                  needs. The two exceptions were utilities that intended to become
                  telecommunications service providers. To follow up on the 2
                  exceptions, 10 additional utilities installing cable containing more
                  than 24 fibers were analyzed. Like the 2 cited above, the 10 utilities
                  were installing more than 24-fiber cable in order to become
                  telecommunications service providers. Since becoming a
                  telecommunications service provider should not be an objective of the
                  PMAs, we concluded that 24-fiber cable was sufficient to meet the
                  PMAs requirements.

                  The Bonneville Project Act, the Department of Energy Organization
Acquisition Of
                  Act, and other Federal statutes give the PMAs authority to construct,
Assets To Meet
                  purchase, or otherwise obtain any assets needed to fulfill their
Primary Mission
                  primary mission of selling and transmitting electrical power. Since
                  communication systems are essential for the safe and efficient operation
                  of the electrical transmission lines, Federal laws can be interpreted as
                  allowing the PMAs to construct fiber optic communication systems.
                  However, this does not give the PMAs authority to acquire assets, such
                  as fiber optics, for purposes other than their operational needs.

                  Office of Management and Budget Circular No. A-76, Performance of
                  Commercial Activities, and Department of Energy Order 481.1A, Work
                  for Others, both address the issue of Federal Government agencies
                  competing with private industry. Under the provisions of these two
                  regulations, competition between Federal agencies and private industry
                  is generally prohibited. Furthermore, in 1996 Congress specifically
                  addressed the issue of Bonneville competing with private industry.
                  Bonneville's 1995 Business Plan called for the development of a new
                  "energy services" business line to market new services and increase
                  revenues, including fiber optics. Congress directed that Bonneville
                  refrain from any activities that would be in competition with private
                  industry. In response, Bonneville modified its 1995 Business Plan and
                  gave notice in the Federal Register that it would not compete with
                  private industry.




Page 4                                                               Details of Finding
Operational Needs        The principal reason Bonneville was installing cable with excess fibers
                         was because other factors, such as revenue generation and local
                         economic development, were considered instead of limiting the number
                         of fibers to operational needs. Bonneville contended that it needed 72-
                         fiber cable to meet its operational needs. Documents such as its 1986
                         Study of Fiber Optic Systems; its 1991 Fiber Optic Decision Paper; its
                         1995 Business Plan; and other documents, however, focused on the use
                         of fiber optic communications as a means to increase revenues.
                         Further, internal capital construction project reviews conducted from
                         1998 to 2000 showed that Bonneville considered aiding local economic
                         development and interest by other parties in leasing fibers. Thus, it was
                         clear that leasing played a significant part in Bonneville's decision to
                         acquire larger capacity cable with more fibers than necessary.

Impact of Excess Fiber   By installing excess fiber and leasing it to outside parties, Bonneville is
                         in direct competition with private companies that lease fiber. This type
                         of competition is not permitted by Federal regulation.

                         Bonneville could reduce its future costs by between $2.7 million and
                         $6.1 million if it restricted its acquisition of cable to 24 fibers,
                         depending on the number and type of fibers used.1 (See Appendix 3.)
                         These cost reductions could then be used to benefit Bonneville's
                         ratepayers.

RECOMMENDATION           We recommend that the Administrator for Bonneville Power
                         Administration limit the acquisition of fiber optic cable to the size
                         needed to satisfy their operational needs.

MANAGEMENT               Bonneville concurred with the recommendation, but not with the
COMMENTS                 finding and took exception to the comparison to other utilities.
                         Bonneville contended that the Office of Inspector General (OIG)
                         comparison infers a one-size-fits-all conclusion. In addition, it
                         contended that communication needs differ from utility to utility and
                         without further information to make a comparison, the OIG analysis
                         was not valid.

                         Bonneville disagreed with the analysis used by the OIG in Appendix 2
                         to determine future fiber needs, specifically the use of
                         OC-192 terminal equipment. Management stated that it is less
                         expensive to use lower capacity terminal equipment to meet operational
                         needs and that Bonneville chose to use lower capacity terminal
                         equipment because of system reliability requirements. Finally,

                         1
                           The two types of fibers (Single Mode and LEAF) used by Bonneville varied
                         significantly in costs. Documentation provided showed that Bonneville used both
                         fibers; and in at least one case, combined the types of fibers.
Page 5                                                                        Details of Finding/
                                                                  Recommendation and Comments
                   management asserted that the OC-192 terminal equipment was
                   relatively new technology and its use would be inconsistent with
                   Bonneville's statutory obligations.

                   Bonneville also disagreed with the reduction of cost identified in
                   Appendix 3. Bonneville asserted that (1) the resulting savings in
                   installing 24-fiber cable would be offset by increased costs in terminal
                   equipment, (2) ratepayers would bear the total cost since there would be
                   no leasing revenue, and (3) the addition of multiplexing terminal
                   equipment would not entirely eliminate the need for additional fibers in
                   the future.


                   Bonneville's comments, while concurring with the recommendation,
AUDITOR COMMENTS   were not responsive to the concern of excess fibers.

                   The purpose of comparing the PMAs to other utilities was not to find a
                   one-size-fits-all solution, but rather to determine if there were any
                   trends in the electrical utility industry. We agree with management that
                   needs differ from one utility to another. After looking at over 20
                   utilities, however, we did not find any that were installing more than 24
                   fibers for operational needs. Those utilities that were installing more
                   than 24 fibers were doing so to become telecommunications service
                   providers. Based partially on this information, we concluded that
                   Bonneville's operational needs could be met with 24-fiber cable.

                   Our analysis in Appendix 2 indicated that 24-fiber cable, along with
                   improved terminal equipment, were sufficient to meet Bonneville's
                   communication needs through 2025. The advances in fiber optic
                   terminal equipment indicate that the capacity of information that can be
                   sent on a single set of fibers will continue to increase dramatically in
                   the future. Thus, with current and future developments the
                   communication capacity of existing fibers should increase dramatically.

                   Bonneville’s assertion that the OC-192 equipment did not meet
                   statutory obligations was inconsistent with information provided to us
                   during the audit. The fiber optic consulting team used by Bonneville
                   did not find any reliability problems with the OC-192. In fact, this team
                   determined that single higher capacity terminal equipment was more
                   cost-effective than using multiple lower capacity units. For example,
                   based on manufacturer pricing information, this team determined that
                   one OC-192 terminal costing $450,000, had the same transmission
                   capacity as 16 OC-12s which is the terminal equipment currently used



Page 6                                              Recommendation and Comments
         by Bonneville at a cost of $1,184,000. This team also concluded that
         the use of multiple lower capacity terminal units actually decreased
         system reliability.

         Management took exception to the reduction of costs figures based on
         24-fiber cable shown in Appendix 3. The OIG's use of 24-fiber cable
         was based on our evaluation of the future needs of the PMA. The cost
         reduction range is based on the type of fiber used in the cable.
         Bonneville's assertion that it will only use the lower priced fiber in the
         future could not be substantiated. Our review of prior projects showed
         that, in the past, Bonneville used both types of fiber in its projects.




Page 7                                     Recommendation and Comments
Appendix 1
SCOPE         We performed the audit from September 18, 2000 through June 11,
              2001, at Bonneville, Western, and Southwestern. The scope of the
              review included existing and planned fiber optic cable projects at all
              three PMAs as of February 22, 2001.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed the May 24, 2000, Report to Congress submitted by
                     the PMAs;
                 •   Reviewed past and future fiber optic cable budgets;
                 •   Interviewed managers, planners, and other officials from the
                     PMAs;
                 •   Interviewed managers, planners, and other officials from other
                     public and private utilities;
                 •   Reviewed applicable Federal statutes and PMA policies;
                 •   Reviewed PMA plans for future fiber optic cable installation;
                 •   Reviewed PMA criteria for determining the amount of fiber to
                     install;
                 •   Analyzed other electrical utilities to determine industry trends;
                 •   Calculated future fiber needs;
                 •   Contacted fiber optic equipment vendors; and,
                 •   Observed fiber optic cable installation.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Internal controls
              related to the installation of fiber optic communication systems were
              reviewed. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. We assessed the significant internal controls and
              performance measures established under the Government Performance
              and Results Act of 1993 related to the PMAs' planning, construction,
              and operation of fiber optic systems. There were no specific
              performance goals for fiber optic systems at any of the three PMAs.
              We did not conduct a reliability assessment of computer-processed data
              because only a very limited amount of such data was used during the
              audit.

              We held an exit conference with Western officials on August 15, 2001,
              and with Bonneville officials on August 21, 2001.




Page 8                                                    Scope and Methodology
Appendix 2
                     ESTIMATE OF BONNEVILLE'S FUTURE FIBER NEEDS


An estimate of Bonneville's future fiber needs was based on:

   •   Bonneville's estimate of communication capacity requirements for 2025;
   •   Communication capacity of terminal equipment currently available on the market;
   •   Minimum number of fibers required to meet the communication needs of each major function;
       and,
   •   Consideration of other factors such as critical functions, capacity requirements, and minimum
       number of fibers required per circuit.

                                   Bonneville's    Minimum Fiber     Minimum         Minimum
                                    Estimated      Needs Based On   Fiber Needs     Fiber Needs
               Function          Communication        Terminal      Based On All    By Function
                                  Load for 2025    Equipment Only     Factors        According
                                  (megabits/sec)      (Note 1)        (Note 2)        To BPA
         Controls &
                                     10,000             1.00          4 (Note 3)         2
         Operational Functions
         Line Protection               155              0.02          2 (Note 4)         2
         System Protection             622              0.06          2 (Note 4)         6
         VHF                           100              0.01                             2
         Administrative               1,000             0.10                             2
         System Monitoring &
                                      1,000             0.10          2 (Note 5)         2
         Testing
         Real Time
                                      1,000             0.10                             2
         Transmission Sensors
         RTO/Scheduling              10,000             1.00          4 (Note 3)         6
                 Total               23,877             2.39              14        24 (Note 6)



       1. Fiber needs were calculated by dividing Bonneville's estimated communication load for 2025
          by the communication capacity of an OC-192 terminal (10,000 megabits/second).
       2. Factors such as critical systems and capacity were considered to determine requirements.
          Additionally, each communication circuit requires a minimum of two fibers, one to send and
          one to receive.
       3. These are critical functions with high volume traffic; thus, an additional set of fibers may be
          required.
       4. These are critical functions and require dedicated fibers. Our analysis indicates that the future
          communication needs of these systems can be met with OC-192 terminal equipment.
       5. These are non-critical functions forecasted to have lower communications traffic, and thus
          could share common fibers.
       6. Bonneville planned to use the remaining fibers in the 36- and 72-fiber cable for additional
          redundant communication pathways, breakage, and unforeseen future growth.




Page 9                                                                Estimate of Bonneville's Future
                                                                      Fiber Needs
The chart shows that even after dedicating extra fibers for services that may be critical or high-demand, a
14-fiber cable will satisfy Bonneville's requirements in 2025. However, the audit only questioned
acquisitions above 24-fiber cable to allow spares for breakage, unanticipated future growth, and to be
consistent with the report Bonneville sent to Congress.




Page 10                                                               Estimate of Bonneville's Future
                                                                      Fiber Needs
Appendix 3
                                ESTIMATE OF POTENTIAL REDUCTION OF FUTURE
                                         FIBER OPTIC CABLE COSTS


An estimate of Bonneville's and Western's potential reduction of future fiber optic cable costs was based
on:

   •   The type of fiber used and its associated cost;
   •   The number of miles of fiber optic cable containing greater than 24 fibers;
   •   An average amount of cable required to install one mile of cable;
   •   The cost per mile for 24-, 36-, 48-, and 72-fiber cable; and,
   •   The potential reduction in future cable costs.

For Bonneville, the calculated potential savings were:

                                               Single Mode Fiber                     LEAF Fiber

       Fibers in Cable                          36-Fiber      72-Fiber       36-Fiber      72-Fiber
       Miles of Cable Route                         801           175            801           175
       Multiplied by Amount of Cable Per
       Mile (1)                                    1.149        1.149          1.149          1.149
       Equals Miles of Cable Required            920.349      201.075        920.349        201.075
       Multiplied by Cost Difference from
       24-Fiber Cable (2)                         $1,505        $6,753         $3,427        $14,483
       Equals Amount of Potential Savings     $1,385,125    $1,357,859     $3,154,036     $2,912,169
                   Total Savings (3)                $2,742,984                    $6,066,205


    (1) The basis for calculating one mile was the Keeler to Tillamook project. The additional cable is
        required to account for sag, splices, and loss from end of cable rolls.
    (2) The difference in cost depends on whether Single Mode or LEAF fiber was used in the cable.
    (3) Both estimates are provided since Bonneville has used both types of fibers in the past.

For Western, the calculated potential savings were:

        Fibers in Cable                                                        48-Fiber
        Miles of Cable Route                                                      1,476
        Multiplied by Amount of Cable Per Mile (4)                                1.044
        Equals Miles of Cable Required                                        1,540.944
        Multiplied by Cost Difference from 24-Fiber Cable                        $6,600
        Equals Amount of Potential Savings                                  $10,170,230


    (4) The basis for calculating one mile amount were the Big Bend to Ft. Thompson, Ft. Thompson to
    Oahe, and Oahe to Pierre projects. The additional cable is required to account for sag, splices, and
    loss from end of cable rolls.

Page 11                                                    Estimate of Potential Reduction of Future
                                                           Fiber Optic Cable Costs
                                                                      Report No.: WR-B-02-01


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
